o £//»
No.

/M O

- 215

IN THE
SUPREME COURT OF THE UNITED STATES OF AMERICA

BARRY J. SMITH SR.,
Petitioner,
v.

THE UNITED STATES CONGRESS, ET AL.,
Respondents.

FILED
AUG 1 0 2021

ON PETITION FOR A WRIT OF CERTIORARI
TO THE SEVENTH CIRCUIT COURT OF APPEALS

OFFICE OF THE CLFRK
SUPREME COURT | it;

PETITION FOR A WRIT OF CERTIORARI

Barry J. Smith Sr. pro se
3124 W. Silver Spring Drive
Milwaukee, Wisconsin 53209
414-315-3913

1

QUESTION PRESENTED

1.

Does petitioner need the government’s consent to petition the government for

redress of his grievance that the government has held him in Thirteenth Amendment slavery
beyond the term of his punishment pronounced by the judge who duly sentenced him for his
crime, and is petitioner’s status as a government slave defined by petitioner having only those
federal Constitutional rights that the federal and State governments choose to grant him?

2.

Without granting petitioner, an emancipated Thirteenth Amendment slave,

due process of law, is it Constitutional for the government to impose as a condition of his liberty
that he not exercise his Second Amendment right to keep and bear firearms for traditionally
lawful purposes, such as self-defense within the home; and is petitioner entitled to a receipt from
the government that he has paid his debt to society by discharging his judicially pronounced
Thirteenth Amendment sentence?

11

PARTIES TO THE PROCEEDING

Petitioner, Barry J. Smith Sr., was the plaintiff in the district court proceedings and appellant
in the court of appeals proceedings. Respondents United States Congress and Wisconsin
Legislature were the defendants in the district court proceedings and appellees in the court of
appeals proceedings.

PROCEEDINGS IN FEDERAL TRIAL AND APPELLATE COURTS

Citizen’s Complaint number 18-C-988 was filed in the United States District court for
the Eastern District of Wisconsin on June 28, 2018 and Amended on July 10, 2018 pursuant to
Federal Rules of Civil Procedure 15(a)(l)(A)(B); copies of the subject complaints attached and
marked A and B. Complaint number 19-C-0671 was filed May 7, 2019, copy attached and
marked C. Complaint number 19-C-1001 was filed July 15, 2019, copy attached and marked D.
District court issued its order dismissing complaint number 18-C-988 on November 14, 2019;
attached and marked 1. District court issued its order dismissing complaint number 19-C-671 on
November 14, 2019; attached and marked 2. District court issued its order dismissing complaint
number 19-C-1001 on November 14, 2019; attached and marked 3. Petitioner filed his Rule
59(e) motion on December 10, 2019; attached and marked E and El. District court issued its
order denying petitioner’s Rule 59(e) motion in complaint number 18-C-988 on June 1, 2020;
attached and marked 4. District court issued its order denying petitioner’s Rule 59(e) motion in

Ill

complaint number 19-C-671 on September 8, 2020; attached and marked 5. District court issued
its order denying Petitioner’s Rule 59(e) motion in complaint number 19-C-1001 on September
8, 2020; attached and marked 6. Petitioner filed his notice of appeal in complaint numbers 18C-988, 19-C-671, and 19-C-1001 on July 14, 2020; attached and marked F. Petitioner filed his
notice of Appeal in complaint numbers 18-C-988,19-C-671, and 19-C-1001 on October 7, 2020;
attached and marked G. Petitioner’s opening appeal brief in Appeal number 20-2283 was filed
on August 31, 2020; attached and marked H. United States Court of appeals For the Seventh
Circuit order summarily affirming the trial court’s dismissal of 20-2283 on March 17, 2021;
attached and marked 7. Petitioner filed his opening appeal brief in appeal numbers 20-2987 and
20-2988 on November 20, 2020; attached and marked I. The U.S. Seventh Circuit court of
Appeals issued its Order affirming the trial court’s dismissal of petitioner’s grievances on March
16, 2021; attached and marked 8. Petitioner filed his petition for rehearing and rehearing en banc
on March 29, 2021; attached and marked 1. The U.S. Seventh Circuit Court of Appeals issued its
order that denied petitioner’s Petition for rehearing and rehearing en banc April 13, 2021;
attached and marked 9.

1

STATEMENT OF CONSTITUTIONAL JURISDICTION

The federal Judiciary, the third branch of the federal government, has jurisdiction of this
petition for redress of petitioner’s grievances pursuant to the First Amendment to the
Constitution of the United States of America. According to BLACK’S LAW DICTIONARY,
ABRIDGED SIXTH EDITION, page 793: Petition. A written address, embodying an
application or prayer from the person or persons preferring it, to the power, body, or person to
whom it is presented, for the exercise of his or their authority in the redress of some wrong, or
the grant of some favor, privilege, or license. A formal written request addressed to some
government authority. The right of the people to petition for redress of grievances is guaranteed
by the First Amendment, U.S. Constitution. Article VI [3] of the federal Constitution says “The
Senators and Representatives before mentioned, and the Members of the several State
Legislatures, and all executive and judicial officers, both of the United States and of the several
States, shall be bound by Oath or Affirmation, to support this Constitution; but no religious Test
shall ever be required as a Qualification to any Office or public Trust under the United States.
5 U.S. Code Section 1331 says: “An individual, except the President, elected or appointed to an
office of honor or profit in the civil service or uniformed services, shall take the following oath:
“I,

, do solemnly swear (or affirm) that I will support and defend the Constitution of

the United States against all enemies, foreign and domestic; that I will bear true faith and
allegiance to the same; that I take this obligation freely, without any mental reservation or
purpose of evasion; and that I will well and faithfully discharge the duties of the office on which
I am about to enter. So help me God.” 28 U.S. Code Section 453 - Oaths of justices and
judges. Each justice or judge of The United States shall take the following oath or affirmation

2

before performing the duties of his office: “I,

, do solemnly swear (or affirm) that I

will administer justice without respect to persons, and do equal right to the poor and to the rich,
and that I will faithfully and impartially discharge and perform all the duties incumbent upon me
as

under the Constitution and laws of the United States. So help me god.”

Pursuant to Article III Section 2. [1] The Judicial power shall extend to all
cases, in Law and Equity, arising under this Constitution, the Laws of the United States, and
Treaties made, or which shall be made, under their Authority;— to all Cases affecting
Ambassadors, other public Ministers and Consuls;— to all Cases of admiralty and maritime
Jurisdiction;— to Controversies to which the United States shall be a Party;— to Controversies
between two or more States;— between a State and Citizens of another State;— between
Citizens of different States;— between Citizens of the same State claiming Lands under the
Grants of different States, and between a State, or the Citizens thereof, and foreign States,
Citizens or Subjects. The above command of Constitutional jurisdiction was only modified by
Constitutional Amendment XI [1798] The Judicial power of the United States shall
not be construed to extend to any suit in law or equity, commenced or prosecuted against one of
the United States by Citizens of another State, or by Citizens or Subjects of any Foreign State.
The plain language of Amendment XI does not prohibit the Judicial power of the United States
over suits in law or equity commenced or prosecuted against the United States or against one of
the United States by one of its own citizens. The judicial power of the United States is
prohibited modifying the United States Constitution by Article V: The Congress, whenever two
thirds of both Houses shall deem it necessary, shall propose Amendments to this Constitution, or,
on the application of the Legislatures of two thirds of the several States, shall call a Convention

3

for proposing Amendments, which, in either Case, shall be valid to all Intents and Purposes, as a
part of this Constitution, when ratified by the Legislatures of three fourths of the several States,
or by Conventions in three fourths thereof, as the one or the other Mode of Ratification may be
proposed by the Congress; Provided that no amendment which may be made prior to the Year
One thousand eight hundred and eight shall in any Manner affect the first and fourth Clauses in
the Ninth Section of the first Article; and that no State, without its consent, shall be deprived of
its Suffrage in the Senate. Congress and the United States Judiciary are clearly directly
prohibited enacting laws and interpretations of laws that effectively amend the United States
Constitution in violation of Article V; the judicially created “sovereign immunity” defense for
the three branches of the federal government certainly is void where the federal government is
alleged to have enacted and defended laws that clearly violate the United States Constitution.
Pursuant to Article VI [2] and Article III Section 2 [1] the lower courts and this Court have
Constitutional jurisdiction to interpret the United States Constitution; Marbury v. Madison, 5
U.S. 137. The trial court issued its dismissal orders November 14, 2019, its orders denying
petitioner’s Rule 59(e) motions on June 1, 2020 and September 8, 2020. The Seventh Circuit
Court of Appeals issued its orders affirming the trial court’s dismissals on March 16, 2021 and
March 17, 2021; it denied petitioner’s motion for rehearing en banc on April 13, 2021. Finally,
this court’s jurisdiction is further based on Title 28 U.S.C. Section 1254(1).

STATEMENT OF THE CASE

On January 16, 1990 petitioner was indicted by a federal (jrand Jury tor "threatening to

5

We The People of America will not have our America tomorrow if the three branches of our
government ignore the Sovereignty of our Constitution today. A Thirteenth Amendment slave
who has totally served his or her Thirteenth Amendment judicially pronounced term of
punishment is entitled to a document from the government verifying that person is restored to
Fourteenth Amendment citizenship. Instead, Congress has punished the citizen a second time
for the exact same crime. This is gross injustice, a crime against humanity, and it is subversive to
our federal Constitution. It is a clear application of your 1857 ruling wherein you establish that
slaves, whether emancipated or not, remain without rights or privileges except those the
government chooses to grant them. Dred Scott v Sanford, 60 U.S. (19 How) 393, 15 L. Ed. 691.

ARGUMENT
Petitioner discharged his last debt to society, as charged to him by the racist trial judge who
pronounced his Thirteenth Amendment punishment sentence. The 2nd rule of petitioner’s term
of supervised release ordered by the trial judge “The defendant shall not use or possess a firearm
or other dangerous weapon.” Petitioner discharged his sentence to supervised release about
29 years ago; nevertheless, Congress has made a law that continues that 2nd rule for the
remainder of petitioner’s life without granting him due process of law.

Date: August 9, 2021

By:
Barry J. Smith pro se
3124 W. Silver Spring Drive
Milwaukee, WI 53209
414-315-3’9T3‘

